5/19/2016

Trustmark Banking and Financial Solutions
Home

Personal

At a Glance
About Us | Checking | Savings |
Loans | Online Banking | Calculators

Business

Mortgage

Wealth Management

Risk Management

Online Banking

Investor Relations

Personal Banking
Services

Common Questions
Let our online Customer Service help
you get your questions answered.
Browse questions other customers have
asked or submit one of your own.

Card Services
Summary of Credit Terms ­ Mastercard® Card
Annual Percentage
Rate (APR) for
Purchases

5.90% Introductory APR for the first six Billing Cycles.

APR For Balance
Transfers

Your APR will be based upon your outstanding balance and the Prime
Rate plus a Margin of 4.9% (balances greater than $2,000) or 7.90%
(balances less than or equal to $2,000). This APR will vary with the
market based on The Wall Street Journal Prime Rate; however, it will
never be greater than 21.00% (Ceiling).

APR for Cash
Advances

21.00% APR

Penalty APR and
When it Applies

21.00%
This APR may be applied to your account if you make a late payment
and/or make a payment that is returned for any reason.

After that, your APR will be based upon your outstanding balance and
the Prime Rate plus a Margin of 4.9% (balances greater than $2,000)
or 7.90% (balances less than or equal to $2,000). This APR will vary
with the market based on The Wall Street Journal Prime Rate*;
however, it will never be greater than 21.00% (Ceiling).

How Long Will the Penalty APR Apply? If your APRs are increased for
any of these reasons, the Penalty APR will apply until you make six
consecutive minimum payments when due.

Paying Interest

Your due date is at least 25 days after the close of each Billing Cycle.
We will not charge you interest on Purchases if you pay and we
receive your entire balance by the due date each month. We will begin
charging interest on Cash Advances and Balance Transfers on the
transaction date.

Minimum Interest
Charge

If you are charged interest, the charge will be no less than $0.50

For Credit Card Tips
from the Federal
Reserve Board

To learn more about factors to consider when applying for or using a
credit card, visit the website of the Federal Reserve Board at
http://www.federalreserve.gov/creditcard.

* The Prime Rate used is the highest “Prime Rate” as published in The Wall Street Journal on the last day of
the month in which the Billing Cycle began or, if not published that day, on the next day published.
Fees

Annual Fee

https://www.trustmark.com/personal/creditterms­mc.html

None

1/2

5/19/2016

Trustmark Banking and Financial Solutions
Transaction Fees
• Foreign Transaction

Penalty Fees
• Late Payment
• Over­the­Credit Limit
• Returned Payment

3% of each Purchase or Cash Advance transaction amount

Up to $37

Up to $37
Up to $37

How We Will Calculate Your Balance: We use a method called "average daily balance (including new
purchases)". See your Cardholder Agreement for more details.
Loss of Introductory Rate: We may end your introductory APR and apply the Penalty APR if you make a late
payment.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in
your Cardholder Agreement.
Monthly Cash Rebate: You will receive a Cash Rebate equal to .50% of your net Purchases (Purchases less
Returns) each Billing Cycle. Your Cash Rebate will be based on the total net Purchases posted to your Account
during your actual Billing Cycle dates. Your Cash Rebate will be credited to your Account by the fifth business
day of the following Billing Cycle. Should the amount of Returns exceed the Purchases during any Billing Cycle
resulting in a credit balance, your Account will be debited accordingly.

Member FDIC

Investor Relations | Contact Us | Privacy Policy
Trustmark National Bank
Corporate Offices
P.O. Box 291
248 East Capitol Street
Jackson, Mississippi 39201

Member FDIC

Main switchboard, 1­800­844­2000
Offices in Alabama, Florida, Mississippi, Tennessee & Texas

https://www.trustmark.com/personal/creditterms­mc.html

2/2

